HHS/OIG, Audit -"Title XXI Federal Financial Participation Claimed for Rehabilitative Treatment Services State Children's Health Insurance Program (SCHIP),"(A-07-02-03027)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Title XXI Federal Financial Participation Claimed for Rehabilitative Treatment Services State Children's Health
Insurance Program (SCHIP)," (A-07-02-03027)
April 12, 2004
Complete
Text of Report is available in PDF format (1.8 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the amounts claimed by the Iowa Department of Human Services (the
State) for Rehabilitative Treatment Services met title XXI reimbursement requirements for Federal financial participation
(FFP).  We identified errors in 68 of 100 sample claims and 28 of those contained multiple errors.  Staff that
lacked the qualifications to develop treatment goals or provide therapy and behavioral management services performed many
of the services.  We identified services not considered rehabilitative treatment of the client, which included general
age-appropriate training and services provided to family members.  In addition, services were not directed at the
effective treatment of the client.  Some providers did not properly support the billed services and allowed non-family
members to be present during treatment services.  Furthermore, we found services provided in conjunction with day
treatment programs, services provided with insufficient staff-to-client ratios and billed services that did not meet the
minimum requirements for core services.  As a result, we recommended a refund of $303,276 in Medicaid FFP claimed
for FFY 2001.